                                   Case Closeout - MO 10300011

        On March 27, 2001, our office received an allegation of plagiarism associated
with a subsequently declined NSF proposal.' The allegation stated that a plant biologist
(subject12 had plagiarized material from an earlier declined NASA proposal3 submitted
by the subject and two research collaborators.

        In response to a letter from our office, the subject confirmed that some material
from the declined NSF proposal came from the original declined NASA proposal but
stated that as a co-Principal Investigator,of the NASA proposal she "can not recall with
any certainty exactly who wrote any of these sentences as the proposal in question was a
joint project involving three authors. . . [and] did not believe it was inappropriate to use
 some of the passages in another proposal."4

        After considering the plagiarism allegation and the subject's response, along with
a comparison of the NASA and NSF proposals, we conclude there is insufficient
evidence to support further investigation into this allegation of misconduct in science. As
the subject jointly composed and submitted the original NASA proposal with two
research collaborators, the subject was, by community standards, permitted to use the
materials and did not commit plagiarism in the NSF proposal. Accordingly, this inquiry
is closed and no further action will be taken by our office.




 '   NSF proposal [redacted]
*3   [redacted].
     NASA proposal entitled [redacted]
     [redacted] response letter (August 13,2001), page 2.
                                                   Page 1 of 1
